<html>
<title> - U.S. ELECTION SUPPORT IN AFRICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                    U.S. ELECTION SUPPORT IN AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2015

                               __________

                           Serial No. 114-19

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
93-820PDF                 WASHINGTON : 2015                      
______________________________________________________________________________________                                
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b7a0bf90b3a5a3a4b8b5bca0feb3bfbdfe">[email&#160;protected]</a>  

                               
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Eric G. Postel, Assistant to the Administrator, 
  Bureau for Africa, U.S. Agency for International Development...     3
Mr. William Sweeney, president and chief executive onfficer, 
  International Foundation for Electoral Systems.................    25
Ms. Gretchen Birkle, regional director for Africa, International 
  Republican Institute...........................................    38
Mr. Eric Robinson, senior program officer for East and Horn of 
  Africa, National Endowment for Democracy.......................    48
Mr. Patrick Merloe, director of electoral programs and senior 
  associate, National Democratic Institute.......................    54

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eric G. Postel: Prepared statement.................     6
Mr. William Sweeney: Prepared statement..........................    27
Ms. Gretchen Birkle: Prepared statement..........................    40
Mr. Eric Robinson: Prepared statement............................    50
Mr. Patrick Merloe: Prepared statement...........................    57

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Prepared statement..............................    76


                    U.S. ELECTION SUPPORT IN AFRICA

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2255 Rayburn House Office Building, Hon. Tom Emmer (acting 
chairman of the subcommittee) presiding.
    Mr. Emmer. Today's subject is U.S. election support in 
Africa. And I will recognize myself for an opening statement.
    Good morning to all of you. I would like to thank our 
witnesses for coming before our subcommittee today to testify 
on U.S. election support in Africa. I specifically want to wish 
Chairman Smith, who is unable to be here today, well and please 
know he cares deeply about this issue in the African continent. 
Myself, along with Ranking Member Bass, will do our best in his 
absence. At this point I would ask that Chair Smith's remarks 
be entered into the record.
    We will have two separate panels this morning to provide us 
with a better understanding of the shifting landscape on the 
African continent. The current situation is that Africa is 
complex with many African nations holding national elections 
this year while enduring ongoing political and civil 
instability. Many of the nations such as Nigeria, Central 
African Republic, and South Sudan are experiencing difficulties 
providing proper security in the face of grave threats such as 
Boko Haram, civil war, and regional tension.
    In the face of these challenges, the United States is 
dealing with fiscal restraints that require us to make 
difficult choices. By prioritizing funds to high-risk states, 
we risk being late to the party.
    I appreciate the opportunity to hear what we are doing to 
provide assistance and how we are coordinating with the U.N., 
NGOs, and the states themselves. Many nations, Nigeria, in 
particular, present many challenges as the current status of 
elections has been in great flux. I would particularly like to 
know today what the U.S. is doing to prepare for the elections 
now slated for March 28th. The vote may prove to be the most 
significant political event in Africa this year.
    With over 10,000 people killed and millions displaced since 
2009, the security situation is dire. The United States must 
provide leadership as Africa's largest economy hangs on by a 
thread. While there is great uncertainty in Africa, there are 
also real signs of hope and progress. While many of these 
states are struggling to forge democratic regimes, they are at 
least transitioning to them. While our own fight for democracy 
was messy, this is to be expected.
    The United States must continue to support these young 
nations as it is vital to our interests, regional security, and 
economic growth, and to the entire world as Africa continues to 
integrate itself into the global economy.
    With that, I would like to yield to Ranking Member Bass for 
her opening statement.
    Ms. Bass. Thank you very much, Mr. Chair. I want to thank 
Chairman Smith. I know he is not with us today. I heard he was 
under the weather, but I want to thank him even though he is 
not here for his leadership and for calling today's hearing and 
for you for serving in this capacity, to give us the 
opportunity to examine in depth, the U.S.'s approach and 
prioritization of not only our Government's direct election 
support, but also our wider democracy and governance efforts in 
support of processes that should take place before and after 
election events.
    I would also like to thank our distinguished witnesses for 
today, as well as several Africa-focused and election experts 
from leading NGOs in the field of democracy and governance. I 
look forward to hearing your perspectives based on the areas of 
focus of your respective organizations including challenges and 
successes as well as your assessment of the U.S. Government's 
level of prioritization and funding of democracy and governance 
programming.
    I also would be interested in hearing your assessment of 
which of the upcoming African elections pose the greatest 
challenges in terms of funding, logistics, internal political 
dynamics or conflict-related concerns. With over 30 
Presidential and parliamentary elections taking place in Africa 
between now and the end of 2016, today's hearing couldn't have 
been more timely as nations such as Nigeria, Sudan, and the DRC 
prepare to go to the polls in 2015. I am not only concerned 
with transparency, accountability, and human security in those 
specific national elections, but also their impacts on regional 
stability.
    As noted earlier, while elections are important, we know 
they are singular events in the electoral cycle, so it is my 
hope that U.S. support for these efforts is inclusive of pre-
election assistance related to access, safety, and integrity of 
ballots. One of the on-going concerns I always have is that in 
some of the countries where we are not clear where the next 
level of leadership is going to come from, what is the U.S. 
doing to help to contribute to that leadership development?
    Lastly, as we look across the political landscape of the 
continent, there seems to be an upward trend in the number of 
incumbent leaders attempting constitutional amendments to 
extend their terms in office. It would be helpful if all of us 
could elaborate on this issue and its implications for the 
future of governance on the continent.
    And in closing, it is vital that the U.S. maintains its 
commitment to peaceful, credible, and transparent elections in 
Africa. And it is now up to each of us to ensure effective 
coordination, improved diplomatic relations, and the transfer 
of the expertise and resources to realize these ends. Thank you 
and I yield back.
    Mr. Emmer. The Chair recognizes Representative Meadows for 
his opening remarks.
    Mr. Meadows. Thank you, Mr. Chairman and I thank the 
ranking member, Ms. Bass, for her leadership on this particular 
issue. I am going to apologize up front. I have got another 
hearing and then some budget issues that I am having to deal 
with this morning. But I do plan to stay and the reason I am 
here, honestly, is to try to not only augment what Chairman 
Smith and Ranking Member Bass continue to do in terms of our 
outreach with regards to the African continent, but 
specifically those--I enjoy a great relationship with many of 
our African Ambassadors. And our involvement there is critical. 
I think it is one of the areas that has the most potential, but 
probably has the most work to do as well. And so it is my hope 
that we can hear from you and your testimony and then hopefully 
with some follow-up questions together that we will do this in 
a bipartisan way to figure out the best way to move forward in 
the continent.
    Thank you so much. I will yield back, Mr. Chairman.
    Mr. Emmer. Thank you. Mr. Eric Postel became USAID's 
Assistant Administrator for the Bureau of Economic Growth, 
Education, and Environment in March 2011. In October 2014, he 
was asked by the USAID Administrator to serve as the Assistant 
to the Administrator for Africa. Mr. Postel brings to the 
position more than 25 years of private-sector experience 
working in emerging markets, especially those in Africa. He 
also has founded an investment banking and consulting firm, 
focusing on emerging markets, worked for Citibank Tokyo, and 
served as a commissioner on the U.S. Helping to Enhance the 
Livelihood of People Around the Globe Commission.
    Mr. Postel, welcome to the committee.

  STATEMENT OF THE HONORABLE ERIC G. POSTEL, ASSISTANT TO THE 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Postel. Thank you, Mr. Chairman, Ranking Member Bass, 
and members of the subcommittee. Thank you very much for your 
welcome and for the opportunity to appear before you today. And 
I ask that my full testimony be entered into the record.
    The U.S. Agency for International Development promotes 
better governance as an integral part of our Agency's mission. 
Supporting elections and political processes have been a 
cornerstone of our work in Africa for more than two decades. 
During the last 6 years alone, USAID has worked to improve the 
credibility and conduct of elections in at least 34 countries 
in Africa.
    As you know, USAID's electoral assistance can take multiple 
forms. I will mention six of them: One, building the 
institutional capacity of electoral commissions; two, helping 
to strengthen political parties; three, training media on how 
to report responsibly; four, encouraging and promoting 
peaceful, nonviolent participation by the citizenry of the 
country; five, facilitating the inclusion of women, youth, and 
people with disabilities at all stages of the process; and/or 
six, equipping nonpartisan election monitors and observers.
    We do much of this work by supporting international 
organizations including those who are testifying here today and 
they have a very long and expert experience in these areas. We 
also are increasingly partnering directly with local, 
nonpartisan, civil society organizations and networks on 
election observation and voter outreach such as NGO 3D in 
Senegal and government institutions such as electoral 
commissions in Ghana and elsewhere.
    In Zambia's recent election earlier this year, USAID 
provided critical support to the civil society, to the election 
commission, and thousands of nonpartisan citizen observers who 
monitored the conduct of the elections and conducted a 
sophisticated parallel vote tabulation that confirmed the 
official close, and I mean under 10,000 vote, difference in the 
results.
    In Burundi, where political violence remains a serious 
concern, our support typifies what we see as the best practice 
of starting to work long before the campaigning even begins. 
Soon after the completion of the last elections in 2010, we 
began a series of assessments to understand what the situation 
had evolved to, the needs, and to identify possible useful 
interventions so that by April 2013, we had launched programs 
pointing toward this year's election.
    And in Nigeria, in close partnership with the United 
Kingdom's Department of International Development, we are 
supporting a whole host of Nigerian efforts on elections. Our 
work in elections administration supports the operations of 
what is called the INEC, Independent National Election 
Commission. To date, they have distributed 55 million voter 
cards to more than 80 percent of the registered voters, a huge 
improvement over 2011. The INEC's election support centers will 
monitor the deployment of materials and collection of ballots.
    We and our partners have also been working with youth to 
support their participation in the processes and working as 
hard as we possibly can to promote peaceful elections. Lastly, 
we are strengthening Nigerian civil society's efforts to hold 
candidates, parties, the INEC, and other officials accountable 
by observing and reporting out on their own elections. Our 
partners are training and deploying more than 3,000 domestic 
observers for the Presidential election. However, U.S. 
Government support alone cannot determine the success of an 
election, particularly when leaders ignore or rewrite the 
rules, or deliberately weaken their own institutions to serve 
their own interests.
    Organizing and conducting credible, legitimate, and 
peaceful elections is not without challenges as you referenced. 
One of the key lessons we have learned is that strong 
institutions and the actual elections are mutually reinforcing. 
Elections are only one step in the long process, as you alluded 
to, that is required for true democratic transformation. We aim 
for our electoral programs to contribute to the whole process, 
not just election day. And it is sustained support for the 
process of democracy from the halls of the government and the 
capital to the village council and across all the full range of 
citizens' groups and independent voices is critical to creating 
and sustaining an environment where democracy can grow and 
thrive.
    USAID and its partners have been fortunate to receive 
strong support and guidance from this subcommittee and its 
hardworking staff which allows us to pursue this important 
work.
    Thank you for the opportunity to testify this morning. I 
look forward to your questions and also to hearing the thoughts 
of the experts on the next panel. Thank you.
    [The prepared statement of Mr. Postel follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                          ----------                              

    Mr. Emmer. Thank you, Mr. Postel.
    Before we proceed to questions, Mr. Bera has joined the 
committee and I wanted to offer him the opportunity to make any 
opening remarks he might have.
    Mr. Bera. I am perfectly happy to proceed to questions.
    Mr. Emmer. Okay, great. All right, then I will recognize 
myself for questions.
    Mr. Postel, you went through the six things that USAID does 
to encourage a safe and viable, valid electoral process, and 
then you came back to it with respect to Nigeria in your 
comments right toward the end when you referenced ``we are 
committed and working toward promoting peaceful, nonviolent, 
electoral processes.'' And then that was number four, and I 
have summarized it a little bit differently, but that was the 
gist. And then number five was ``encouraging the participation 
of young people and women in the process.'' I want to focus on 
those two in the brief time that we have this morning. Maybe 
Nigeria is a good place to focus since we have got the election 
that has been rescheduled from February 14th to March 28th.
    First off, the postponement, I am going to throw in one 
little curve, too, because you said at the end, ``the process 
depends upon''--I am going to paraphrase it. USAID can only do 
so much. It really depends on leaders who do not ignore or 
rewrite the rules. Can you give us a little bit more insight as 
to the specific situation in Nigeria with the postponement and 
then I want to come back and ask you to address numbers four 
and five a little bit more, both with respect to Nigeria and 
more broadly.
    Mr. Postel. Thank you for the question, Congressman. As you 
probably saw, the State Department issued a statement that they 
were disappointed by the delay, but the announcement was that 
they basically weren't ready and they needed more time. And 
that was the Government of Nigeria's decision. At this stage, 
with that as a fait accompli, our focus is to continue to say 
that the U.S. Government feels very strongly that we don't want 
any more delays and we really do hope that this delay has been 
put to good use, to make sure that they are ready and in terms 
of the mechanics of the election and also to try to do 
everything possible to deal with some of the side effects of 
the problems related to Boko Haram and so forth.
    So for instance, there are, I believe, close to 1 million 
internally-displaced people, people that are not in their 
homes. And we have certainly been trying to support the 
electoral commission with ideas about how to enable those 
people to vote and maximize the ability of all Nigerians across 
the whole country to vote. And so we are working hard to 
support them in their efforts to have this happen in barely 2 
weeks.
    Mr. Emmer. Thank you. Back to leaders who ignore or rewrite 
the rules. So that wasn't the situation that we were talking 
about in terms of leadership in Nigeria postponing this. This 
is USAID. From your perspective, this was their taking control 
of their own situation, saying they weren't ready, and 
postponing it for, until further notice, legitimate reasons.
    Mr. Postel. That is what they told us and they set a date 
and if they stick to that, I think that we can move forward, 
that they felt they needed that time to finish their 
preparation.
    Mr. Emmer. And as far as USAID, your involvement, because 
we heard this back in early February, that you were training 
3,000 some folks to be involved in the process. That was ready 
to go on the 14th when it was originally scheduled?
    Mr. Postel. I believe it was, Congressman.
    Mr. Emmer. Now to the two specific things. How do you, 
USAID, how does USAID encourage and specific examples if you 
will, and if Nigeria is a place to focus on, that is fine, but 
pick whatever you want. How do you encourage a peaceful 
process?
    Mr. Postel. Thank you for your question. It is more art 
than science, but it is something that is very important to do. 
And there are a number of examples. It is not one specific 
thing. One of the things is to encourage a lot of people to 
have dialogue and to get a lot of people in the country trying 
to talk about the advantages and why peaceful resolution of 
issues is a much better way to go. And this----
    Mr. Emmer. Can I?
    Mr. Postel. Sure.
    Mr. Emmer. How do you do that?
    Mr. Postel. So we try to work with a lot of different parts 
of society. We have on occasion worked with people that are in 
the arts who the youth might look up to. We have worked 
extensively in some countries with faith-based groups. In fact, 
in Nigeria, there is a coalition of Christians and Muslims who 
are working in an interfaith center and they are speaking out 
about this and trying to encourage it.
    I understand that all the media have agreed that some time 
next week there is going to be a day where basically this 
message of nonviolent elections is going to be on all channels, 
talked about all day long, so anybody who has got access to any 
media in the country. So what happens is that people just work 
through many different channels of civil society.
    Of course, the U.S. Government speaks directly about these 
subjects, but I think one of the lessons learned over time, is 
it is better when the citizens of their own country speak to 
their fellow citizens, rather than us across the oceans and so 
forth.
    Mr. Emmer. I understand that Gretchen Birkle of IRI will 
testify that roughly a dozen African nations that are holding 
elections this year, they are engaged in civil conflicts or 
battling terrorism or domestic insurgencies. You have given me 
some of it, I think just now, but what is the USAID policy for 
supporting elections in countries like this beyond what you 
have just talked about?
    Mr. Postel. Thank you for question, Congressman. That is a 
great question because it is a very challenging situation and 
what we have to do is on the one hand it presents an 
opportunity to talk to people in these countries where there is 
instability or conflict, that peaceful, nonviolent means of 
resolving disputes and having those discussions through civil 
society discussions and through elections is a much better way 
to go. And so because there are disagreements, it is a chance 
to really work on that message and help people learn how to 
have those dialogues and encourage the democratic processes.
    But, of course, we also have to factor in safety to our own 
staff and our partners. And in some cases, we are able to 
reconcile both. There have been some cases where we are not 
able to perhaps work in an entire country because of the need 
to worry about the safety of our partners or our own staff. So 
that is the biggest challenge to it which is the safety side. 
But there are also opportunities to show people there is 
actually a better way and try to work with a lot of voices and 
to not let the rabble-rousers and violent extremists control 
the narrative and drive people more and more toward violence.
    Mr. Emmer. Thank you and I thank the ranking member for her 
patience. One last one before I turn it over to her. The 
recommendations for governments of national unity have been 
widely utilized to redress election misfires. However, can you 
suggest any situation in which such blended governments have 
succeeded when the main opposition opponent has been included 
in a blended government?
    Mr. Postel. I am not expert enough to be able to answer 
that, but I will be happy to come back to you. It is not an 
area that I am familiar with. Thank you for the question.
    [The information referred to follows:]
Written Response Received from the Honorable Eric G. Postel to Question 
          Asked During the Hearing by the Honorable Tom Emmer
    Governments of National Unity (GNUs), by this and other names, have 
been employed in Africa during post-conflict transitions, as in South 
Africa, Sudan, Burundi, and the Democratic Republic of Congo. More 
recently, countries such as Kenya and Zimbabwe have used GNUs as a 
temporary mechanism to restore governance after electoral disputes. 
This approach has proven useful in the short term for conflict 
mitigation, particularly when the GNU period is relatively brief. Yet 
over time, these arrangements tend to undermine good governance 
principles and practices, while postponing or even exacerbating the 
political grievances they were meant to resolve.
    American University scholar Carl LeVan has studied the topic and 
summarized his findings as follows:

          Power sharing agreements have been widely used in Africa as 
        paths out of civil war. However the research focus on conflict 
        mitigation provides an inadequate guide to recent cases such as 
        Kenya and Zimbabwe. When used in response to flawed elections, 
        pacts guaranteeing political inclusion adversely affect 
        government performance and democratization. Political inclusion 
        in these cases undermines vertical relationships of 
        accountability, increases budgetary spending, and creates 
        conditions for policy gridlock.

    Dr. LeVan's paper and analysis is available at: http://
onlinelibrary.wiley.com/doi/10.1111/j.1468-0491.2010.01514.x/abstract

    Mr. Emmer. Thank you. And if you do have something after, 
please supply it. At this point, I will recognize the ranking 
member for her questions.
    Ms. Bass. Thank you, Mr. Chair. I just have a couple of 
quick questions. One, you were making reference to media in 
Nigeria and you were talking about questions calling for it to 
be peaceful. Is that an effort that either is one that we are 
paying for or subcontracting with or were you just making 
reference to an effort that is happening in Nigeria?
    Mr. Postel. Thank you for your question, Congresswoman. We 
are not paying for the media, but our partners have been 
involved in encouraging that this might occur. But Nigerians 
are making this happen to the best of my knowledge.
    Ms. Bass. Okay, I wanted to know if you could elaborate 
where USAID is currently prioritizing democracy and governance 
programs amongst its varied objectives. Specifically, what kind 
of election assistance does the U.S. support in Africa and 
where is USAID focusing? I am a proud member of NED's Board, so 
I am aware of that piece. But outside of NED, what does USAID--
in which countries?
    Mr. Postel. Thank you for the question, Congressman. I can 
get you a complete list, but off the top of my head I believe 
this year we are working on a total of 13 or 15 different 
elections, most of which are national level. Some of the big 
countries--some of the countries where we have the biggest 
activities right now include the Democratic Republic of the 
Congo, Nigeria, Kenya, and so forth. We can get you a full 
list. But it is not all inclusive because, for instance, we 
just supported the snap election that occurred in Zambia as a 
result of the death of the head of state.
    Ms. Bass. Right.
    Mr. Postel. So the list, of course, varies year to year, as 
we try to maximize the efficiency of the resources and adjust 
that to deal with the electoral calendar.
    [The information referred to follows:]
Written Response Received from the Honorable Eric G. Postel to Question 
          Asked During the Hearing by the Honorable Karen Bass
    The below table notes in which African countries/operating units 
USAID had programs addressing democracy and governance issues in 2014. 
It also notes where elections-related programs in particular were 
active.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Bass. And speaking about the resources, can you speak 
to trends for funding for democracy and governance programming 
within USAID? I have heard, and I don't know what the exact 
figures are, that it has diminished in previous years.
    Mr. Postel. Thank you for your question, Congressman. There 
was some decline. We are still spending quite a bit of funds on 
these topics. In the President's FY 16 budget, he requested a 
total of $300 million for Africa on democracy and governance of 
which $62 million would go for the general topic of elections 
and consensus building.
    Ms. Bass. You know, do we spend any time, and I am just 
thinking that the country of Namibia and you mentioned Zambia, 
you know, there are examples in Africa where there have been a 
sound process, you know, where the transfer of governance has 
been peaceful, has been consistent. And we tend to always talk 
about the problems. So my question to you is, does USAID spend 
any time promoting the good examples? I know there is going to 
be an inauguration in Namibia in just a couple of days, but we 
do tend to just focus on that and I don't know if we spend any 
time talking about positives.
    Mr. Postel. Congressman, you see me smiling ear to ear 
because in November I was in Zambia to work on things relating 
to economic growth and I also met with the electoral commission 
and looked at what support we were gave. And then I watched 
what happened. And I felt so strongly on this point that you 
made that I suggested to our teams that I would author an 
article which we put into several African press outlets to 
basically talk about the success in Zambia. I am not saying 
that it was flawless, but the trend was right. There are other 
examples such as Namibia that you mentioned.
    Even Kenya, if you think about it, what went on in the most 
recent election which incidentally, Congressman, there was huge 
work on a massive scale. I mean 1 million-plus youth. It was a 
huge amount of work done in Kenya, right from the end of the 
disastrous 2007 election to try to prepare through the whole 
cycle. And so it was a lot better election. So I fully agree 
with you that we need to talk about these because I think they 
represent strong models for the other countries and let them 
realize that number one, it can be done because as you know, 
pulling off elections is actually logistically complicated and 
for some of these countries they are very young countries, so 
let them know what is possible and that the world commends 
those who can pull it off. So I personally think that we have 
to do more and I am dedicated to doing more, to trumpet the 
success so that we shine a light on that so others can see what 
is possible.
    Ms. Bass. And you know, I think that is very good and I 
would appreciate in the future you letting us know what you 
have done in that regard and then how we might be supportive. 
But just like I think it is important that we publicize that 
within Africa, I also think it is important for us because you 
know, when we talk about Africa it is always from the point of 
view of some problems, so I think here amongst our colleagues 
it is important. But I think that is our responsibility. We can 
spread the word on that.
    So with that, Mr. Chair, I will yield.
    Mr. Emmer. Thank you. The Chair now recognizes, Mr. 
Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for your 
testimony so far and I agree with the ranking member that we 
need to do a better job of telling the positive things. Some of 
us represent districts where supporting Africa and foreign aid 
and those kind of things gets us reelected. I am not one that 
enjoys that particular constituency. I would assure you. At the 
same time, I have been willing to invest political capital on 
this particular issue and it is mainly out of my respect for 
the ranking member and the chairman and their work in this area 
and my love for many of the people, many of whom I have met for 
the first time, but having traveled to Africa a number of times 
and worked alongside of orphanages or schools or other people 
in need, it is critical.
    So I say that with the backdrop because I want to focus on 
a couple of areas that knowing that you have a willing 
participant here, there are some areas that I am extremely 
concerned about that I would like for either you to address or 
for you to take back to the appropriate people to address. One 
is obviously a USAID diplomat was arrested at the DRC within 
the last couple of days, on Sunday. You know, this is one that 
really, I think, comes under your supervision from a USG point 
of view. And here we have a U.S. diplomat being arrested in a 
country in which we are involved with, so can you help us 
understand the events and has there been follow-up calls with 
them and what should we expect?
    Mr. Postel. Thank you for your question, Congressman, and 
also for your support in an environment where not everybody 
agrees with some of this work.
    So the individual who is a Foreign Service Officer was at 
an event that was meant, per our prior discussion, to encourage 
youth to peacefully air their differences and peacefully 
participate in electoral processes. There were a number of 
people taken into custody at that event by the secret services 
of the government there and it took 3 hours until our diplomat 
could be released. And I was working on it as it was happening 
as was everybody there.
    Our Ambassador to the Democratic Republic of the Congo was 
fully engaged as was the head of USAID's office there and the 
whole team. In a follow up, once that person was released, they 
have already met with the Minister of Foreign Affairs and had a 
discussion and expressed our unhappiness with what happened.
    Mr. Meadows. I hope expressed our strong disapproval.
    Mr. Postel. Yes, sir. Exactly. And the conversations are 
not finished. There was also some inaccurate reporting in the 
press about what this event was and people are working with the 
press and talking to people to clarify their understandings 
because it was not as some portrayed it, some attempt by the 
opposition party to somehow cause trouble. That is not at all 
what it was.
    Mr. Meadows. Alright, so let me follow up a little bit then 
because I think the message needs to be clear. There is a 
finite amount of resources and you have to make a decision each 
and every time where you are going to deploy those resources. A 
willing or at least an open government that respects the 
diplomatic security that comes along with that is a key 
component for any of us and we have to make decisions. And so 
we want to hear back from you on the results of those follow-up 
conversations if you will report back to the chairman and this 
committee on that particular aspect of that so that we make 
sure that no one is in harm's way. God forbid that it could 
have been much worse than what we saw.
    [The information referred to follows:]
Written Response Received from the Honorable Eric G. Postel to Question 
         Asked During the Hearing by the Honorable Mark Meadows
    Mr. Kevin Sturr, Director of the USAID/DRC Democracy, Human Rights 
and Governance office was detained on March 15 after attending a press 
conference organized by a group of civic activists to discuss their new 
youth movement called ``Filimbi'' (``whistle blower'' in Swahili). The 
press conference followed a workshop with civil society members and 
musician activists, including two Young African Leadership Initiative 
(YALI) fellows and other YALI network members. Members of Senegalese 
youth movement Y'en a Marre and Burkina Faso youth movement Balai 
Citoyen were also present and detained along with the owners of the 
venue. The event was sponsored in part by the Embassy's Public Affairs 
Section. USAID did not financially support the event.
    Mr. Sturr was released unharmed several hours after his arrest 
following an inquiry by the U.S. Embassy in Kinshasa. The U.S. Embassy 
protested the detention of U.S. diplomat Kevin Sturr to the Ministry of 
Foreign Affairs in the DRC and to the DRC Ambassador in the United 
States. In a discussion with the U.S. Ambassador, the Congolese 
intelligence agency indicated that they would complete and submit the 
findings of their investigation of Mr. Sturr by Friday, March 20 to the 
President. As of this writing (March 27), the government's 
determination in this matter is unknown and Mr. Sturr's passport 
remains with the Congolese authorities.
    Congolese press reports that some members of the Congolese National 
Assembly have called for the release of Congolese youth who were 
detained. The President of the National Assembly is acting to keep 
Members of Parliament (MPs) informed on the matter. Congolese press 
further reports that one of the detainees is the son of an opposition 
MP.
    The United States government often sponsors projects that involve 
youth and civil society as part of its broader commitment to encourage 
a range of voices to be heard. These non-partisan and non-violent youth 
organizations as well as the organizers of the weekend's events 
intended to engage youth in their civic duty to take part in the 
political process and raise their voices about issues of concern to 
them. DRC government officials and ruling coalition parties were 
invited to the event.
    The U.S. government strongly objects to the DRC government's 
violation of basic freedoms of speech and of peaceful assembly. A 
troubling trend of the Government of the DRC restricting the freedom of 
civil society to speak out is emerging and was accentuated by the civil 
unrest of last January, in which students featured prominently.
    Recent events underline the importance of USAID's support for free, 
fair, credible and timely elections in the DRC through citizen and 
voter education and citizen participation in elections observation.

    Mr. Meadows. So let me follow up a little bit further. Your 
involvement in the democratic process is really not one of 
trying to influence governments as much as it is trying to make 
sure that the people in those African countries have a voice to 
be able to select their own leadership. It is not about setting 
up governments, is that correct?
    Mr. Postel. Yes, sir. We are not there to push for specific 
candidates or specific platforms, but to try to encourage free, 
fair, transparent processes that get everybody involved and 
intelligently working through the issues.
    Mr. Meadows. Well, and I am glad you answered that because 
I have met with a number of African leaders, Ambassadors, heads 
of state and I have expressed to them over and over our desire 
to make sure that we have an open and democratic process. And 
many of them believe that our influence, your influence, 
candidly, is there to influence the politics of that particular 
day. So that is really like nails on a chalkboard because I 
know that that is not what any of us want to see there. So you 
are here today. Your testimony is that setting up governments 
and influencing the outcome is not what it is all about? I 
think that should be a softball question.
    Mr. Postel. Definitely not, Congressman.
    Mr. Meadows. So let me go a step further and this is a 
message to take back to some in the State Department. When we 
see reports recently of funds being given to a nonprofit that 
indirectly, and I don't want to make this political, but when 
we see funds, $350,000, being filtrated in to affect elections 
in a democratic country of Israel, and you know what I am 
talking about, it undermines everything that we are trying to 
do and what you are trying to do because they take that 
narrative and say well, if you are willing to influence it 
there, what is to stop us from influencing it in some African 
country? Would you agree that that is a problem?
    Mr. Postel. So----
    Mr. Meadows. If you were an African leader, let me put it 
that way, instead of speaking for USAID. Would you believe that 
that would be a problem?
    Mr. Postel. I believe that it would be not helpful at all. 
It would be a problem if some of these heads of state think 
that somehow we are trying to directly advocate for them or 
against them as opposed to understanding that we are there 
about the process and for the sake of free, transparent, open 
elections. So I will take your message back.
    Mr. Meadows. And let it be clear, I am here to support you 
in any way that I possibly can because I believe in the future 
of what you are trying to do and really the future of the 
African continent. There is great work to be done there.
    At the same time, if the State Department is sending a 
conflicting message and I have been silent on a lot of this 
stuff, if they are sending a conflicting message, it creates an 
integrity problem for me and what I have got to do is make sure 
that if you take that back and I am saying this in the 
strongest terms, that it will not be tolerated, using American 
taxpayer dollars and I want the message to go out to all the 
African countries. There are many of us here on Capitol Hill 
that believe the use of American taxpayer money to establish a 
government of our choosing is not what we do. We want the 
people of those countries to establish their own leadership. 
Would you agree with that?
    Mr. Postel. Yes, sir.
    Mr. Meadows. Alright. Thank you. And I again thank you for 
your service and I just feel like those two areas are areas 
that we need to address. I appreciate the patience of the 
chair. We are going to be following all the other four 
panelists back in our office. I apologize, I have got to run 
and deal with Hezbollah. That is a lot easier than this.
    Mr. Postel. Thank you, sir.
    Mr. Meadows. Thank you.
    Mr. Emmer. The Chair recognizes Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. And I want to thank the 
ranking member. Just to reiterate comments that Africa, for all 
of its challenges, is a continent full of promise and the work 
that you are doing, the work of making sure in the short term 
there are free and fair elections and in the longer term that 
there is a culture of voting, a culture of peaceful transition 
is not easy work, but it is necessary work and certainly 
reflects the values of our great nation.
    I would also reiterate what my colleague, Congressman 
Meadows, suggested that it is not our goal or our business to 
do anything other than help ensure free and fair elections. In 
that note, I would be curious, as you look at some of the 
nations of Africa where USAID and others are engaged in short 
term in ensuring free and fair elections, what is the culture 
of voting in many of these nations? Again, we have our own 
challenges in terms of the culture of voting, but I would be 
curious what your sense is, just in general terms.
    Mr. Postel. Thank you for your question. I think there are 
probably some who are more expert than me, but my general 
understanding is that it varies across different countries and 
that in some cases there may be a limited experience with 
formal voting as we currently experience it here, but there are 
elements of selection of village elders or other sorts of 
selection processes that actually have a long history, I 
believe, in a number of the countries, but it really varies as 
you would expect.
    Mr. Bera. So maybe that as we approach these countries, as 
opposed to saying well, here is what our culture of voting is 
and here is how we vote, making sure that we are understanding 
their culture of voting and how they might interpret that 
selection process which may be slightly different, but still 
again if there is a fair and democratic--is that pretty 
accurate?
    Mr. Postel. Two things, Congressman. First of all, when we 
do our work, we always with our partners look at the 
circumstances in the country. And so as we design the work in 
partnership with local organizations and government and 
everybody, we very much try to be sensitive to these 
differences to make sure, because that is how you help make 
sure it is effective.
    But the other thing I would say is that polling over the 
last 10, 15 years has shown that the percentage of people who 
feel very strongly that they want to vote, they want a 
democracy and their understanding of what that involves is 
rapidly rising. So in one sense they are coming around and are 
really interested in the same sort of democracy that we have 
here.
    Mr. Bera. Great. Next question. Who are other partner 
countries that we are working with? Obviously, France has a 
long history on the continent and are there other partner 
countries that we are working with, partner democracies?
    Mr. Postel. Thank you for your question. There are a bunch. 
Of course, France and the UK are active in a number of 
countries, especially their former colonies. The Nordics, 
Scandinavia, Norway, Sweden, Denmark and so forth, have often 
worked on elections and civil society and peaceful coexistence 
issues across Africa and we have partnered with them.
    We see several other donors as well, such as the Canadians, 
the Germans, and others. So there are number of different 
international donors that work on these things and we are 
trying very hard to coordinate with them in all cases and in a 
number of cases, outright partner, and do it together.
    Mr. Bera. Another question, again, listening to the 
questions that Congressman Meadows had asked, you know, I do 
hear reports of U.S.-based campaign consultants often getting 
hired to go run campaigns in some of these African nations. I 
would be curious to get your take. If some of these private 
sector campaign consultants are coming in, being hired by one 
candidate or another candidate, clearly with the goal of 
getting that candidate elected, if that becomes an issue, if 
others see--they may not always know that. They will see 
someone who is American and they may kind of blur the line. Are 
you seeing an increase in kind of these outside private 
consultants coming in? Does that make your work more difficult?
    Mr. Postel. I am not too expert in that, Congressman, but I 
know of some cases where the candidates themselves have hired 
external consultants who may be out of the U.S. or they could 
also be out of Europe and other places. You know, that is part 
of what they do campaigning, but we are sticking to the 
process. And we work with political parties to make sure that 
they run themselves in a professional way, but it is not about 
candidates or platforms or anything like that. And so we are 
working also on the mechanics of the election. So to that 
extent when they have consultants talking about what the 
messages would be or whatever, that is a different area than in 
which we are working.
    Mr. Bera. And I would just for the record want to make sure 
that is not the policy of the United States Government, 
although sometimes, again, in the recent elections in Israel, I 
think there were folks saying well, it is an administration 
trying to influence an election by having consultants go there 
again. That is not our policy. Our policy is to ensure free and 
fair elections.
    The last question, as we look at some of the countries that 
were ravaged with Ebola and so forth, are there unique 
challenges that again, not knowing exactly what their election 
timetable is like, things that USAID is thinking about, going 
forward in terms of helping build some of that infrastructure?
    Mr. Postel. Thank you for your question, Congressman. You 
may remember that actually Liberia had an election in December 
amidst this. It does absolutely make it more complicated 
because you have people coming in contact and handling things 
that they are passing to each other where if somebody were 
infected and in the voting queue or whatever, it could actually 
lead to transmission; it was widely discussed about how to do 
this. And our medical and humanitarian experts, I believe, were 
consulted informally about best practices to try to make sure 
that that wasn't a problem. And Guinea which has an election 
coming up, will also have to be attentive to that. So it is a 
concern as we try to deal with the Ebola problem. And then at 
the same time, we wouldn't want anybody to have new 
complications introduced, but on the same token you have got to 
have elections. It is not an excuse not to have elections.
    Mr. Bera. Right. Thank you.
    Mr. Emmer. Thank you, Mr. Bera. Mr. Postel, thank you very 
much for being here today. We appreciate your time and your 
testimony. And I just as a matter of form want to make it clear 
that your complete submission will be made part of the record 
as will the next panel, their complete submissions will be 
entered into the record as well. I want to thank you for being 
here today and at this point we will call up the second panel.
    As they are moving to the table, why don't we introduce 
them?
    Mr. William Sweeney serves as the president and CEO and 
IFES. Prior to these positions, he also served as a member of 
the Board of Directors and was board chairman at IFES. He has a 
lifelong background in democracy promotion and public policy 
with considerable experience in both the public and private 
sectors. He was deputy chairman of the Democratic National 
Committee and executive director of the Democratic 
Congressional Campaign Committee. He has been an official 
election observer in the Philippines, Russia, Jamaica, and 
Nicaragua. Welcome to the panel, Mr. Sweeney.
    Ms. Gretchen Birkle currently serves as regional director 
for Africa, at the International Republican Institute where she 
is responsible for developing and managing programs in 
transitioning African countries. She has extensive experience 
managing democracy and governance programs in closed societies 
and developing countries around the world. She served as senior 
coordinator at the State Department's Bureau of Democracy, 
Human Rights, and Labor where she provided strategic direction 
for programming and human rights reporting and represented the 
bureau by testifying before Congress. Ms. Birkle has observed 
elections in Africa, Asia, Eurasia, and the Middle East.
    Mr. Eric Robinson serves as a senior program officer with 
the Africa Program at the National Endowment for Democracy. In 
his role, he oversees the East, Horn, and Southern Africa 
regions and works specifically on Somalia and Eritrea. He also 
provides oversight to more than 25 NED Core Institute projects 
in the region. Prior to his appointment at NED, he lived in 
Puntland, Somalia for 6 months under a U.N. Development 
Programme consultancy for civil society and he worked for 
several organizations in the United States implementing 
federally-funded programs related to refugees, asylees, and 
civil society development in newcomer communities in the United 
States.
    Mr. Patrick Merloe is senior associate and director of 
electoral programs at the National Democratic Institute. He has 
more than 30 years of experience in promoting citizen 
empowerment, governmental accountability, and public policy 
advocacy and oversees many of the Institute's programs. Mr. 
Merloe has participated in more than 150 international missions 
for NDI to more than 65 countries concentrating on conflict-
sensitive states and countries that are vulnerable to 
authoritarian tendencies and has produced a dozen publications 
on comparative law, human rights, and elections, and he served 
as the principal drafter and negotiator of the Declaration of 
Principles for International Election Observation.
    Thanks to everyone on the panel for being here today and we 
will start with testimony from Mr. William Sweeney.

STATEMENT OF MR. WILLIAM SWEENEY, PRESIDENT AND CHIEF EXECUTIVE 
    ONFFICER, INTERNATIONAL FOUNDATION FOR ELECTORAL SYSTEMS

    Mr. Sweeney. Mr. Chairman, Ranking Member Bass, and 
distinguished members of the subcommittee, on behalf of the 
International Foundation for Electoral Systems, I deeply 
appreciate this opportunity to discuss the impact of U.S. 
electoral support in sub-Saharan Africa.
    Let me start by commending this subcommittee for its 
constant engagement and focus on all the issues concerning 
democratic development in Africa. This hearing is another 
spotlight by the subcommittee, thank you.
    Since 1987, the International Foundation for Electoral 
Systems, better known as IFES, has worked in over 145 countries 
to support citizens' rights to participate in free, fair, 
transparent, and accountable elections. Our active programs in 
Burkina Faso, Burundi, the Central African Republic, Cote 
d'Ivoire, Guinea, Kenya, Libya, Liberia, Mali, Nigeria, Uganda, 
and Zimbabwe empower the individuals and institutions that make 
democracy work at every turn of the electoral cycle.
    IFES provides technical assistance to strengthen local 
capacity and electoral inclusiveness in societies that aspire 
to realize their full democratic potential.
    Mr. Chairman, as we prepare for Nigeria's March 28th 
election, we should recognize that every Nigerian who votes is 
choosing the ballot over the bullet. Nigeria has a history of 
election-related violence. There were violent episodes in 2007 
and 2011. Nigerians' vote this time is a personal rejection of 
Boko Haram, their public threats to this election, and the 
terrorist legacy since 2009 of 13,000 dead, 1.5 million forced 
to flee their homes, and kidnappings including the 219 
schoolgirls. In the United States, political factions don't 
kill poll workers and burn down polling stations.
    On March 28th, Nigerians will once again courageously 
exercise their human right to choose the leadership of their 
country and to vote for stability and democracy. Since taking 
his post as chairman of the Independent National Electoral 
Commission or the INEC in late 2010, Chairman Jega has brought 
a new level of professionalism and integrity to the 
institution. The introduction of the biometric register, while 
costly, was seen by many Nigerians as an important step in 
cutting down on the possibility of voter fraud and ballot 
stuffing. Since 2010, Chairman Jega has also pioneered internal 
reorganization of INEC's departments as well as new policies 
and procedures to improve efficiency and effectiveness of the 
bureaucracy.
    Domestic and international observers commended the INEC for 
process improvements and their integrity in the conduct of the 
2011 elections, a substantial improvement over 2007, according 
to the Department of State statement. Despite the highly 
politicized environment surrounding the INEC and the elections 
in Nigeria, Chairman Jega has managed to maintain a reputation 
for being impartial and professional and is well respected by 
Nigerian civil society and citizens. He will finish his term in 
June 2015.
    Let me now briefly summarize our written statement. All the 
political situations in the countries under discussion are 
fragile. Public institutions have large mandates with little 
time to build capacity even if resources are available. None of 
the electoral management bodies, or EMBs, in these countries 
have had the luxury of time in office to demonstrate 
independence from the political tensions and unrest currently 
underway. However, the elections represent the best of 
opportunity to peacefully address political disputes and give 
all parties time to come together as a community and as a 
nation.
    The alternative to the election process and outcome is 
quite simple and direct. Military or authoritarian rule is 
hopefully a closing chapter in Africa, but it remains a clear 
alternative. U.S. assistance to the election process remains 
critical to supporting the voices and votes of the Africans who 
have demonstrated a hope for democracy both according to 
polling data and by their courage to vote.
    IFES' focus is the election process conducted by the public 
institution, the election management body. Much of the cost of 
an election, personnel, infrastructure, down to ballots and 
ballot boxes, are part of the public budget of the country. 
Technical assistance introduces global standards, best 
practices, strategic planning, and specialized programs for 
outreach to women, persons with disability, youth, ethnic, 
indigenous, and religious minorities which are of particular 
importance in conflict zones.
    The challenges in Africa are both immediate, 25 elections 
are scheduled in the next 21 months, and imminent. Africa has a 
young population about to come of age and enter their society 
as adults. The Afrobarometer suggests that young voters will 
participate, but their expectations are higher and they will 
then drop out of the process if things do not change.
    IFES is proud of its record of partnership in sub-Saharan 
Africa. We are both honored and grateful for the confidence 
USAID, the U.S. Department of State, and our international 
partners have demonstrated in our capacity and commitment 
through their continued support. Mr. Chairman, and members of 
the subcommittee, democracy in Africa will certainly be tested 
in 2015 and beyond. The real tests are ahead of us.
    In 2014, there were more South African voters who came of 
age since Nelson Mandela's first election in 1994 than the rest 
of the electorate. The rest of the electorate remembered the 
apartheid era. But that wasn't the majority of voters in South 
Africa in 2014. The demographic challenge of the next 
generation--their aspirations and their fears--were made 
personal to all of us by another investment in their future by 
the U.S. Congress: The Mandela Washington Fellows attending 
last summer's U.S.-Africa Leaders Summit.
    There are no final victories in politics, or elections, or 
democracy. The challenges will always be ahead of us. Democracy 
is not measured in one moment, one election, one success, or 
one failure. It is an ongoing process, and one that the 
International Foundation for Electoral Systems is committed to 
support. Thank you.
    [The prepared statement of Mr. Sweeney follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Mr. Emmer. Thank you, Mr. Sweeney.
    Ms. Birkle.

STATEMENT OF MS. GRETCHEN BIRKLE, REGIONAL DIRECTOR FOR AFRICA, 
               INTERNATIONAL REPUBLICAN INSTITUTE

    Ms. Birkle. Thank you, Mr. Chairman, Ranking Member Bass, 
and members of the subcommittee. Thank you for this opportunity 
to testify on election support in Africa. Given how many 
Africans will head to the polls in 2015 and over the next 
several years, preparing is extremely timely. The International 
Republic Institute in Africa works to encourage democracy in 
places where it is absent, help democracy become more effective 
where it is in danger, and share best practices where democracy 
is flourishing.
    While there are best practices that can serve as models for 
other countries, there are also broader challenges that could 
hinder elections in Africa. I would like to highlight four of 
those broader challenges today. Many African states have made 
steady progress toward developing and consolidating democracy 
following centuries of colonialism and underdevelopment, yet, 
genuine multi-party democracy has yet to take root in most 
countries and this is the first challenge to highlight as we 
look at elections in these countries.
    The limited capacity of political parties to govern, that 
is, to exercise legitimate authority and provide basic services 
to citizens is contributing to increasing citizen distrust and 
apathy, low voter turnout, and a failure of expectations of 
democracy among many Africans throughout the continent.
    A second challenge is the pervasive trend to attempt to 
change the rules of the game. Specifically, there are 
increasing attempts to change laws and yes, even constitutions, 
to evade term limits. Once in power, leaders often have no 
desire to foster peaceful, political transitions and instead 
openly work to change the rules to stay in power. These 
attempts to change the rules of the game have not gone 
unnoticed by the people of Africa. Citizens are now protesting 
against incumbents who are seeking to extend their term in 
office and unfortunately, these protests often turn violent 
like we saw last October in Burkina Faso.
    What happened in Burkina Faso has had a significant impact 
on the region and citizens in each country are keeping an eye 
on their neighbors. As an opposition Member of Parliament from 
Kinshasa recently told me here in Washington, DC, people in 
Burundi have seen how the Congolese stood up and the Congolese 
saw how the people in Burkina Faso stood up. The upcoming 
elections in DRC are important not only for DRC, but for all of 
Africa. This underscores the critical need to look at elections 
and the challenges impacting them along regional lines and not 
only in isolation for each country.
    A third challenge that could impact the outcome of 
elections in Africa is the huge youth demographic on the 
continent. The region has the youngest population in the world 
with two-thirds of its 1 billion population under the age of 25 
and half of the population under the age of 19. This means that 
for many youth, elections set to occur over the next few years 
will present the first opportunity for them to exercise their 
right to vote. Tapping into the voices and desires of young 
people is a challenge for the region, but one that holds 
extraordinary potential for ushering in new leaders with new 
ideas. African nations must find ways to engage their growing 
youth populations to participate positively in the electoral 
process and help shape the future trajectory of their 
individual countries and the region as a whole.
    The fourth challenge is the potential for electoral 
violence and ongoing civil conflict. 2015 will be a year of 
contentious politics where preexisting tensions will intersect 
with elections. There is an urgency to devise strategies now to 
prevent and manage electoral violence. This is critical since 
recurring electoral violence may cause citizens to lose faith 
in democratization.
    Now looking forward, it is imperative to view elections as 
a process, not a single event. Continued support is needed 
between elections in order to see sustainable progress. For 
example, now is the critical time to support aid efforts to 
encourage broad-based and inclusive strategies for mobilizing 
voters, particularly marginalized populations such as youth. 
Citizen engagement and conflict prevention efforts are 
important and are complemented by polling and programs that 
encourage political parties and candidates to campaign on 
policy issues, rather than personalities.
    Ultimately, the challenges Africa faces, leaders evading 
term limits, marginalization of youth, ongoing civil conflicts 
and potential for election-related violence, are all related to 
the lack of strong multi-party democratic systems. Once nations 
fully embrace and adopt competitive, representative, political 
processes with all of its checks and balances, then these 
challenges will be better addressed. We should support Africans 
and their pursuit of prosperity with sustainable democratic 
institutions and processes where all individuals have the 
opportunity and incentive to participate in the political 
process. And where peaceful, political transitions can occur, 
the people of Africa will be freer to pursue their political 
and economic aspirations. Thank you.
    [The prepared statement of Ms. Birkle follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                         ----------                              

    Mr. Emmer. Thank you, Ms. Birkle.
    Mr. Robinson.

STATEMENT OF MR. ERIC ROBINSON, SENIOR PROGRAM OFFICER FOR EAST 
      AND HORN OF AFRICA, NATIONAL ENDOWMENT FOR DEMOCRACY

    Mr. Robinson. Mr. Chairman, ranking member, members of the 
committee, I am honored to speak before your subcommittee 
regarding the National Endowment for Democracy's support for 
elections in Africa.
    NED began funding civil society organizations working on 
elections in Africa 25 years ago when we made the first such 
grant to an organization called GERDDES to monitor the historic 
elections in Benin in 1990. Last year, NED made nearly 250 
grants in Africa and as many as half of these supported 
election processes in some way. Since the critical role of 
elections in Africa has already been recognized, I will focus 
on how NED engages in Africa on elections.
    Elections are a necessary, but not sufficient, condition 
for democracy. Concerning elections, NED supports NGOs that 
provide civic education, monitor rights violations, and provide 
forums for citizens to express their views. Currently, many 
African leaders have attempted to change the constitution to 
enable them to run for more than two terms, and civil society 
groups have raised the alarm. This was most recently so in the 
case of DRC which is NED's largest program in Africa. Most of 
our nearly 50 partners in DRC have focused on the current 
political process including elections later this year and next 
year.
    Elections give citizens and institutions practice, 
knowledge, and familiarity with democratic culture. Even flawed 
elections can provide space for civil society to conduct civic 
education. And in relatively closed political environments such 
as Sudan, Chad, Rwanda, or Ethiopia, NED is supporting civic 
groups that work in a limited space with the aim of expanding 
it and laying the foundation for a future democratic 
dispensation. Elections are not a 1-day event. NED supports 
domestic observation groups that may follow the process for 
months or years beforehand. Our grantees have advised electoral 
commissions, observed and supported voter registration, audited 
voter lists, monitored media, and organized debates and voter 
forums.
    Elections can serve as a means of conflict resolution, but 
they can also lead to violence. Therefore, we have supported 
groups promoting peace and resolving conflict, often in the 
context of elections. Through CIPE, NED supported the Kenya 
Association of Manufacturers which played a role in ending the 
violence after the 2007 elections. Currently in Nigeria, we 
have grantees that train citizens in the north on conflict 
resolution and the women's organization promoting Christian-
Muslim dialogue. These are but a few examples.
    Africa is the world's youngest continent and as 
demonstrated in Senegal and Burkina Faso last year, youth are 
moving to the front line of political change whether through 
elections or popular uprising. In partnership with the World 
Movement for Democracy, just last weekend NED brought together 
nearly 100 young democratic activists from across Africa to 
share experiences and information regarding these transitions. 
NED's partners engage youth in election processes, pointing 
them in a positive, democratic direction.
    Women have been politically marginalized in much of Africa, 
but when given the chance have provided tremendous leadership 
in civil society and government. NED is supporting IRI and NDI 
to cultivate women's political leadership and the Solidarity 
Center is working with women to expand their role within unions 
and labor associations in Africa. With NED funds, the Nigerian 
Federation of Women produced television programs promoting 
women's participation in these upcoming elections. In 
Somaliland, women and youth organizations provided nearly all 
the monitors for their successful elections. And in Uganda, 
CEWIGO has had success in cultivating a new generation of 
female politicians.
    We have often seen in Africa that today's democratic 
champion can become tomorrow's despot, so we don't pick a 
winner. NED respects pluralism and the political process in 
support of free and fair elections. Normally, party training is 
not conducted within 30 days of an election. Funds may not 
support the candidacy of candidates for public office, and by 
and large, whatever political loyalties our partners may have, 
their programs are nonpartisan.
    And the politics of the belly still rules much of Africa, 
meaning that political office often affords the best 
opportunity for securing material wealth through patronage. NED 
has supported groups conducting investigative reporting and 
campaigns against corruption. Our partners help citizens 
understand that elected officials are their representatives, 
not their patrons, and that they should not sell their vote for 
a bag of rice as NAYMOTE, a long-time Liberian grantee, 
successfully campaigned.
    Africans want elections. Even if citizens in some countries 
are apprehensive about election violence, corruption and 
impunity have caused apathy. NED's partners support 
participation and mobilization and those who have observed 
elections in Africa can testify to the commitment and 
enthusiasm of voters who may stand in line for hours.
    Elections and democracy may still be a work in progress in 
Africa. We and our grantees are optimistic about the future.
    Mr. Chairman, ranking member, and members of the committee, 
I look forward to your questions.
    [The prepared statement of Mr. Robinson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Emmer. Mr. Merloe.

STATEMENT OF MR. PATRICK MERLOE, DIRECTOR OF ELECTORAL PROGRAMS 
      AND SENIOR ASSOCIATE, NATIONAL DEMOCRATIC INSTITUTE

    Mr. Merloe. Thank you, Mr. Chairman, Ranking Member Bass, 
distinguished members of the subcommittee and thank you for 
entering our full statements into the record. I associate 
myself with the comments of my colleagues and will not be 
repetitive of their remarks. Rather, I will concentrate on our 
concerns and eight recommendations that were presented in my 
statement.
    Mr. Chairman, NDI has worked in 43 African countries on a 
wide variety of democracy-support programs including partnering 
with political parties, parliaments, civil society groups, and 
democratic reformers in government in more than 100 elections, 
plus we have observed international elections in Africa in 49 
examples in 24 African countries.
    The vast majority of these programs have been made possible 
by USAID, the NED, and DRL. And we greatly appreciate the trust 
that they have placed in the Institute to conduct programs that 
correspond with the vital interests of the people of this 
country and correspond with the democratic aspirations of the 
people of those African states.
    I would like to use your example, Mr. Chairman, of Kenya, 
if I may. Kenya's 2007 elections demonstrated the horrific 
consequences of the lack of diligence by citizens and the 
international community. While the 2013 elections and the 
interim period between those two demonstrated the positive 
consequences of concerted efforts to build democratic 
institutions and processes.
    If Kenya's 2017 elections are to move forward and avoid the 
possibility of falling back into violence and other problems, 
concerted efforts and focused international support is needed 
beginning now and moving forward. This is a lesson that should 
be applied across the continent when we look at elections and 
democratic support. The need for sustained, long-term, and 
multifaceted support for organizing peaceful, credible 
elections in Africa stands out in many examples beyond Kenya. 
The risks for failing to achieve them are extraordinarily high, 
while the benefits for governing, stability, and for inclusive 
authentic development are essential to progress on the 
continent.
    Yet, there appears to be decreasing levels of support for 
democratic governance in Africa and a concentration on a small 
number of countries. This could have an unintended negative 
consequence, not just on organizing peaceful elections, but on 
democratic development, which is a cause for concern.
    Public confidence and credibility of elections is vital to 
public trust in government. That trust is important for 
government stability which is essential to peace and security. 
This is particularly important today when we are challenged 
internationally by extraordinarily violent forces that reject 
democracy and human rights.
    Support for democratic elections in Africa should build 
long-term democratic, political dynamics. The support should 
include encouraging reform of winner-take-all political systems 
and related politics. This can contribute to effective 
democracy that roots out corruption, improves lives, and 
reduces the possibility for political violence. Political 
parties that engage citizens on issues concerning improving 
their lives, rather than on personalities, on ethnicity, tribe, 
or religion are essential to developing peaceful, democratic 
elections and democratic governance in Africa. Electoral 
support needs to help political parties build capacities, 
structures, and communication mechanisms in this respect.
    Party programming needs to encompass political steps that 
lead to the camps eschewing electoral violence. Support also 
should bolster parties' capacity to improve legal frameworks to 
verify the accuracy of key electoral processes and to gather 
the evidence that is necessary to pursue effective legal 
redress.
    Mr. Chairman, citizen election monitoring is critical to 
support for African elections. Monitoring and advocacy by 
African citizen groups are making a sustained contribution to 
peaceful, credible elections by witnessing key election 
processes over the long arc of elections, for analyzing 
electoral data, making and reporting findings, and for making 
recommendations for improvements in electoral and political 
processes. Election monitoring spread across the continent 
through a peer-to-peer approach that included assistance to 
developing expertise and then helping experts move to other 
countries to bring with them the best techniques and core 
organizational structures that are needed. NDI's experience in 
assisting those groups demonstrates that organizational 
development and skills consolidation is difficult to sustain 
when support is limited to short periods immediately before 
elections.
    Many of these groups have formed subregional networks. 
Those networks help each other and they all come together in 
the Global Network for Citizen Election Monitoring (GNDEM), 
which has over 200 member organizations in 82 countries, 37 of 
them in Africa. In that network, they provide skill sharing, 
best practices, they adopt innovations, and they build 
solidarity for one another when pressure comes upon those 
groups.
    Electoral support should focus on aiding these groups and 
on the professional development of these regional and global 
networks based upon the ethical foundations that are provided 
in the Declaration of Global Principles that GNDEM, the global 
network, has provided, launched by the United Nations 
Secretariat in 2012.
    Mr. Chairman, parallel vote tabulations, as Mr. Postel 
mentioned, by citizen organizations play a key role in 
decreasing political volatility and mitigating potential for 
violence. The precision of PVTs in gauging whether the voting 
and counting processes support an honest result and in 
projecting statistically with large degrees of confidence and 
low margins of error, are important for building public 
confidence in elections as was the case cited most recently in 
Zambia, but also it has been true in Ghana and other places 
around the continent. In fact, NDI has assisted the successful 
implementation of 38 parallel vote tabulations in more than 11 
African countries, and these techniques are being taken up in 
other places. Support for Africa elections should prioritize 
the assistance to these nonpartisan election monitoring groups, 
particularly to take up systematic assessments of election 
processes.
    Let me conclude by addressing briefly international 
election observation, which can play an important role in 
achieving peaceful, credible elections in Africa. The key 
organizations that engage in international observation come 
together in coordinating their efforts increasingly and 
harmonizing their findings in a process that is built around 
the Declaration of Principles for International Election 
Observations launched at the United Nations Secretariat in 
2005. The African Union, ECOWAS, Francophonie, and other 
African groups come together in this process with EU, the OSCE, 
the OAS, Carter Center, NDI, and the other convening 
organizations in order to help build best practices and some 
peer accountability. Support for African elections should 
provide assistance for key organizations to fully engage in 
that implementation process. This could significantly reduce 
the potential for well-known international organizations 
issuing different findings about African elections. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Merloe follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Emmer. Thank you, Mr. Merloe.
    I will recognize myself to start. I will note that Mr. 
Clawson has joined the subcommittee and everybody this morning 
had many different conflicts.
    Mr. Clawson. I had three at once, so please don't take 
offense. Sorry about that.
    Mr. Emmer. If you have any opening remarks that you want to 
make at this point?
    Mr. Clawson. I never come to a party late and then start 
talking right away. I will jump in the game in a little while. 
I am glad you all came and glad for the service that you all do 
for so many folks around the world, so thank you for coming 
today. Thanks.
    Mr. Emmer. Mr. Sweeney, I want to start with you. You made 
the reference that young Africans' expectations are higher. I 
think I know what that means, but could you just expand on that 
part of your testimony?
    Mr. Sweeney. Thank you, Mr. Chairman. Simply put, the 
patience of the younger generation around the world is much 
lower than the patience of old folks like myself. Particularly 
in Africa, we are seeing an expectation, a demand, that things 
change and things change quickly. And that means that the 
political process has to be responsive to those demands or else 
they drop out. And given the size of that population, that then 
becomes a threat to the stability of their countries and their 
cultures going forward because they will come back into the 
system in some way, in an angry way, perhaps, as we have seen 
in other countries.
    In Africa, when you look at the demographics, and 
particularly go back to South Africa where in talking with 
friends of mine on the South African Election Commission, I 
said what is your greatest challenge? And they said a majority 
of voters have no memory of apartheid. They have no memory of 
Nelson Mandela's entire struggle because they came of age since 
he was elected President. That is an enormous challenge in 
terms of civic education, in terms of trying to do outreach 
among those citizens. In other countries in the Middle East, we 
see the same problem right now where people have participated 
in elections, those elections have not had consequences that 
they imagined or desire, and they are dropping out of the 
process.
    Mr. Emmer. And I appreciate you focusing it on Africa and 
some other places, but when you opened it, I think the ranking 
member and I agree that I think the statement is applicable all 
around the globe that the younger folks have less patience.
    Ms. Bass. We were young once. We remember that.
    Mr. Emmer. I am still very young, but thank you for 
recognizing that.
    Mr. Sweeney, USAID has a booklet acknowledging the entirety 
of the election cycle, so the understanding and importance of 
the whole process. Do you believe funding is the major reason 
why such programming is more limited than it might be?
    Mr. Sweeney. I think there is a combination, sir. The 
first, obviously, is funding. All development agencies around 
the world engage in democracy and governance have had funding 
issues over the course of the last few years, both because of 
the fiscal crisis and competing demands.
    The second is, candidly, this field has become much more 
robust and we have become much more sophisticated and as such 
all of the organizations have spawned other organizations so 
there is a greater demand than there was say when I was doing 
my first mission with NDI and IRI doing political training in 
Hungary and the Berlin Wall was still up. This investment in 
the philosophy of democracy has attracted hundreds of 
organizations, both global and national, that are doing great 
work. And that places greater demands on grant-making 
organizations be they NED or USAID or any of the other 
foundations or international donors.
    Mr. Emmer. Thank you. Ms. Birkle, you state that parties 
are too personality driven. By the way, Mr. Merloe referenced 
this as well. And we will stay on this, but it caught me, the 
quote caught me that we need people to focus on campaign 
issues, rather than personalities. I think that is probably a 
global issue, too.
    Ms. Bass. Sounds familiar.
    Mr. Emmer. Yes, just a little bit. But if you can, has 
there been measurable success in helping African political 
parties create coherent party platforms that build sustainable 
party structures to select viable candidates?
    Ms. Birkle. Thank you. There has been success. I would even 
point to limited success currently in Nigeria where we have 
been working with USAID funding over the past 2 or 3 years and 
even when our programs first started in the late '90s with 
political parties in Nigeria, to really have them embrace 
internal party reforms and the notion of issue based political 
parties. We have been able to have public opinion polls in 
several countries that have helped political parties understand 
the importance of issues and what that means to electorates and 
how they can devise campaigns around the issues to help them 
run more effective campaigns and really to encourage greater 
participation from the electorate.
    We just finished a public opinion survey in Uganda that 
will be released later this week. We hope that that is going to 
serve as a basis for many of the Ugandan political parties as 
they look to elections next year.
    Mr. Emmer. Mr. Merloe, since you brought up this as well, 
do you have anything you want to add?
    Mr. Merloe. I think it is incredibly important that we look 
at political parties over the arc of time. Most of the 
countries that we are talking about in Africa started with 
relatively low levels of political organization. Of course, 
South Africa was different. The liberation movements were very 
well organized and needed to make the transition to seeking 
votes at the ballot box which IRI and NDI and others helped to 
do. But that level of organization has not been present in many 
countries. So first we start with those people who are seeking 
governmental powers which are sometimes coming out of those 
conflicts, where we are looking at an armed basis for competing 
for powers. And with that, there needs to be a kind of 
transition work that brings into the process lots of the 
population to mitigate the potentials for violence, including 
civil society playing a critical role. You can get through the 
transition elections and help those political organizations 
begin to take on qualities that are more like political 
parties.
    In other places, where you are starting with personality-
driven politics, which as you noted is very well established 
around the world, it is helping people see that if they each 
stand separately, they are likely to divide the population that 
might support the change in their country, so learning how to 
come together in coalitions becomes a very important activity. 
And then, of course, if a coalition succeeds as happened in 
Kenya three elections ago, you have to help them learn how to 
be a governing coalition, which is a very complicated process 
in Parliament. So all of these things are necessary, and we 
have to work very hard on it. Just last week in South Africa, 
we brought together the secretary generals of political 
parties, opposing and government political parties, from 14 
countries in the SADC region in order to try to determine what 
is an agenda for strengthening parties looking forward on the 
continent in the next 10 years. This is a constant process.
    Mr. Emmer. Mr. Robinson, I have got one for you. You state 
in various ways that elections are not the be all end all of 
democracy. I think you started your testimony with that. In 
what way does any defunding complement USAID funding to ensure 
that democratic processes in Africa are built from the 
grassroots up and not just from the top down, kind of 
continuing on like Mr. Merloe just was?
    Mr. Robinson. Thank you for your question, Mr. Chairman. I 
think it is recognizing that it is a long term, incremental 
process when you start talking about ideas and concepts and 
seating them. So what we do is we look at grassroots 
organizations to begin that process in areas and places where 
people haven't been exposed to these ideas. And by slowly 
tilling that soil, by pushing these concepts out there, at the 
request of people who submit proposals, it should be repeated 
that the endowment does not tell people what to do. We receive 
proposals from people, the programs that they want to 
implement. And so what we do is we till that soil, the concepts 
go out there, and then when some of our partner organizations 
come in and they have a very focused strategy on elections, on 
processes, the ground is ready. People are ready to engage with 
the actors that are in governing positions.
    Mr. Emmer. Thank you. At this point, I will recognize the 
ranking member for 5 minutes.
    Ms. Bass. Thank you. I just have a few questions that are 
kind of all over the place. I was thinking of the Nigeria 
election coming up. How confident are you, and I would throw 
that open to anybody who would like to answer, about the 
security issue. We understand that was the reason the elections 
were postponed, so what has happened?
    Mr. Sweeney. I will take a first stab. The security 
situation, if you really follow the press and reports from the 
military, they are confident, at least so far that they have 
been successful over the course of the last 6 weeks. Of course, 
we are dealing with a terrorist organization that has 
threatened to engage in disruption of the election process and 
as we all know, terrorists only need one incident in order to 
claim some success.
    Nigeria also has a history of election violence between 
parties and factions. I suspect we will see some of that as 
well, so discerning what was normal crime on election day that 
does happen everywhere around the world versus electoral-
related violence versus terrorist activities will be subject of 
some inquiry.
    There are numerous efforts, including some by IFES, to try 
and chronicle this to be able to exchange information very, 
very quickly using social media and other forums. The INEC 
itself has a command center in partnership with the security 
forces, so I think the entire country will be on alert as best 
it can be.
    Ms. Bass. Is anybody aware of what is happening in Sierra 
Leone? The Vice President, I guess, was just dismissed. He was 
seeking asylum at the U.S. Embassy. I didn't know if any of you 
were aware of that which I think is unfortunate.
    Burkina Faso, do you think that what happened there will 
have a chilling effect or will it be hopeful? In other words, 
in countries that might be considering delaying their 
elections, given what happened there, do you think that sends a 
signal that maybe that is not the best idea or does it send the 
other message which is a chilling effect to the population to 
just, you know, go along and cooperate?
    Mr. Robinson?
    Mr. Robinson. I think you have seen the impact of what 
happened in Burkina Faso and DRC with the arrest that took 
place the other day. Some of the people that were engaged in 
Burkina Faso were there at the event and I think there is the 
perception by countries that are considering delaying 
elections, even in a round about way as they were in DRC that 
they view this as a threat. And so yes, this has been--they are 
taking notice, authoritarian leaders, in particular, across the 
continent.
    Ms. Bass. How do you think the populations are responding?
    Mr. Robinson. The populations, as was said earlier, people 
are responding like hey, it is happening elsewhere. This is 
exciting. But in Africa when someone comes down on you hard, 
they come down on you hard and they shoot live ammunition into 
crowds or people are just simply disappeared. So they take that 
to heart because they have experienced it time and time again.
    Ms. Bass. Mr. Merloe or Ms. Birkle?
    Mr. Merloe. Thank you, ranking member. I believe that Eric 
summarized it very, very well. On the one hand there is a tug 
of war between people who would impose authoritarian regimes 
and people who have over the arc of history struggled to have 
governments that are representative of the population. And what 
happened in Burkina Faso, with people coming to the street, I 
think in many ways, inspired people not just in Africa, but 
also those who learned of it around the world. And as my 
colleague sitting over here, Dr. Keith Jennings, likes to say, 
``I haven't seen many examples of people coming to the streets 
demanding more authoritarianism.''
    So they are not always successful. Sometimes, as we have 
seen in Egypt, they are beaten back. Sometimes they are 
attacked, as we have seen in other countries like in Ukraine 
being attacked. But nonetheless, what we see around the world 
is a consistent drive for having representative government.
    Now, we have a little bit of a discussion that is going on 
around this town about democratic recession, that in the last 9 
years we haven't seen as many dramatic breakthroughs as we have 
in the 10 or 20 years before that. But if we look at this over 
the time when World War II ended, when there were less than a 
dozen democracies after fighting the horrendous 
authoritarianism in the Second War World, the Berlin Wall was 
going up then, and military dictatorships were being 
established around the world. Colonialism was trying to come 
back and from that arc until today there have been tremendous 
progress. And I think that is very true on the African 
continent. My work goes around the world, but in 23 African 
countries, I find this to be more inspiring than I see 
troubling.
    Ms. Bass. A couple more, and this is directed to you. You 
were asking--you were talking about the Nigerian parties and 
identifying issues and the Ugandan political parties and I just 
wanted to know if you could expand on that and one place I 
would like to go, I have never quite understood, I know NDI and 
IRI sometimes work in the same countries, but I really don't 
know what you do differently. And when you were talking about 
political positions and all that it certainly piqued my 
curiosity, so what are you guys doing?
    Ms. Birkle. Thank you. In terms of IRI and NDI, we work 
very closely in many, many countries and Nigeria is a good 
example of that. Uganda, Kenya, there is a whole host of 
countries where we are together, but there are some countries 
where we are not. And some of that has just been choices 
because of restricted funding amounts or divisions of 
leadership to engage in one country or not another. And that is 
different globally. But in general, and with the International 
Foundation for Electoral Systems and also with our NED 
partners, there is a real very healthy sense of camaraderie and 
competition amongst the institutes in the countries where we 
work.
    Ms. Bass. So what perspectives do you bring? I mean I think 
you know where I am going. Do you bring political positions? 
Because when you talked about that, that is what I was 
wondering.
    Ms. Birkle. We don't. You know, once we are working 
overseas, we really are working around issues that are germane 
to those countries. And so when I am conducting and IRI is 
conducting political party survey research, for example, it is 
really based on the issues that the people of those countries 
are telling us are important to them.
    Ms. Bass. I would love to see those surveys.
    Ms. Birkle. Certainly.
    Ms. Bass. And I don't mean to just--I referenced you 
because you mentioned that, but you might do issues that are 
germane to the countries, but how you interpret those issues, 
so I would direct that to you, Mr. Merloe, where you come from 
and how you interpret that.
    Mr. Merloe. Good question. NDI has worked since our 
founding in what you might say is a multi-ideological fashion. 
We are associated with the political party internationals 
across the spectrum and often bring them together in our work. 
We integrate Republicans and Democrats and people from various 
political parties around the world into our work. And when we 
are working with political parties on how to take an issue 
orientation toward their citizens, what we try to help them to 
do is face outward to the citizens and get citizen input. Let 
the citizens define what are the critical issues for them, and 
then help those parties look at research, this side and that, 
and formulate their own positions. What we don't do is: IRI 
does not work with parties on the right, and NDI work with 
parties on the left. We work across the political spectrum to 
promote democratic, political dynamics.
    Ms. Bass. So you are going to come here and help us?
    Mr. Merloe. We are not allowed to work inside the United 
States.
    Ms. Bass. Okay, thank you very much. I appreciate it. I 
yield back.
    Mr. Emmer. Thank you, ranking member. The Chair recognizes 
Representative Clawson for 5 minutes.
    Mr. Clawson. So if I missed something that you all said in 
your openings, if I am repetitive in some way, you all will 
forgive me because I wasn't here, okay? So as I think about 
what I have read about what you all do, how you get it 
accomplished, I draw from my own experience in the private 
sector for many years and my own experience in my many visits 
to Africa.
    Kind of my starting point is socialism destroys wealth and 
it is tough to bring people up that way. Private enterprise, if 
it is crony capitalism is unfair and it causes a lot of people 
consternation because they don't have private property rights 
and people that want to get ahead don't really have a shot 
because those in power have got all the economic resources for 
themselves. And that too often, we are in one place or another. 
We are way too socialistic which destroys wealth because it 
ignores competitive marketplaces. Or we are in the crony 
capitalism bucket where bunches of a small amount of people 
have got it all for themselves and then everybody else is in 
the middle suffering.
    And then I say to myself well, try to do elections in that 
environment. Can you really do that? And if I was sitting in 
you all's chair I would say in the countries where you don't 
have private property rights, economic opportunity for folks, 
what is the point of trying to get elections, you know? People 
just are going to get stamped down anyway.
    And so it kind of feels like you have to narrow where you 
want to shoot and use your resources to where there is a match 
of economic opportunity with electoral opportunity. I am not 
even sure that is a word. Am I making sense to you all? And if 
I am, what does that mean in your own efforts and why are you 
laughing at me right now? If my question is way off base, you 
tell me, but it is how I think about things. Go ahead.
    Mr. Robinson. Thank you for your question. I guess I will 
start by saying that one of the things you are addressing is 
for NED and people with whom we work on the continent, it is 
the issue of corruption and I think looking at the issue of 
crony capitalism it is paralyzing. What happens when you have 
so much money flowing to only a few people and the business 
sector is not on a level playing field. People can't compete 
with their own ideas.
    Mr. Clawson. And just to interrupt, the typical poor voter 
equates democracy with that crony capitalism?
    Mr. Robinson. What they see is wow, this dream of democracy 
that we have had for decades, is this what it is? And that is 
exactly it. This democratic dispensation isn't coming through. 
However, a lot of them, just like many people around the world 
are able to distinguish they don't say oh, you are an American, 
I don't like you. They are able to separate things out. And 
people are also able to say hey, we still want the vote.
    Someone referred to Afrobarometer statistics. Afrobarometer 
shows very clearly that Africans support democracy. Africans 
support the right to vote. And what we are looking at right now 
is how do we do more forensic accounting in terms of the money 
that we give in Africa? How do we get them to engage to be more 
transparent in terms of how money goes in and how their 
relationships are conducted so that money is spent in the 
country to build institutions, to build confidence and trust in 
the institutions? And when you have again, like you said, crony 
capitalism or people controlling all aspects of the state, it 
is very difficult to make it happen.
    Mr. Clawson. Is my correlation correct or am I all wet? Is 
there a higher to what you just said? Is there a higher degree 
of involvement or desire to be involved in the political 
process when there is economic opportunity for everyone? Or is 
it more when there is less because people want change and they 
are more desperate or do you know? Yes, sir.
    Mr. Sweeney. First of all, Congressman, I never call a 
Congressman who is asking a question all wet.
    Mr. Clawson. But you are about to.
    Mr. Sweeney. No, I am not, sir. But I am going to say that 
we are all--all of us, without choosing--all of us are in the 
political change business. All of us are in the optimism 
business that you can build a democratic process where all 
citizens have the opportunity to exercise their political right 
and their human right to choose the leaders of their society. 
And that change usually comes about in reaction to the two 
extremes that you described the crony capitalism where the 
wealth of the country is held by only a few and not shared with 
the general society.
    Mr. Clawson. And I am a Republican and that is wrong.
    Just for the record.
    Mr. Sweeney. I understand that, sir. I completely 
understand that. And I think your own interest in this topic as 
evidenced by you being here is a statement about your attitudes 
toward these two extremes, the one being where the country is 
being--the wealth and the power is being held by a few to the 
exclusion of the demands and ambitions of everyone else, or the 
wealth and the power is so distributed in such a way that no 
one has any opportunity and ambitions are frustrated. That then 
results in a consensus for change and all of us have been 
involved in some ways who deal with political parties or with 
civil societies or with public institutions and then making 
that process of change peaceful and legitimate and accountable 
and transparent and free and fair and that is a challenge of 
civil society. That is a challenge for political parties. That 
is a challenge to the news media. That is a challenge to the 
judiciary. And in my case, that is a challenge to the public 
servants who are trying to stage the election and make sure 
that everyone's vote is cast and counted in a completely 
transparent and professional fashion to the satisfaction of all 
other elements.
    Mr. Clawson [presiding]. Can I finish in your absence? If 
you need to go, go. You all don't mind staying another minute? 
Half the room is going to leave right now, but go ahead, 
continue. What you are saying is, well, go ahead, either of the 
other two that haven't spoken have anything to add to that?
    Ms. Birkle. Well, I would just add and thank you for the 
thoughtful question. We recognize very much that there are 
limited resources that we have to do our work overseas. And 
each of our organizations needs to be very strategic about 
where we choose to work because there are limited resources. 
And then also to point out that we really do view nations as a 
process. And they are only one very important stage of the 
democratic development process. And while we are talking about 
elections today, there is a whole host of work that we will do 
throughout the course of an election cycle to encourage citizen 
engagement and citizen questioning of their elected officials, 
and programs that encourage citizens to hold their elected 
officials accountable and to engage during campaigns and closer 
to elections through debates, for example, or other outreach 
programs. So citizens start to really understand the issues 
matter to them and that their vote is going to matter 
ultimately on how they are governed and how that will impact 
their life.
    Mr. Merloe. As I was reflecting, sir, on your question and 
I have had the honor of sitting with former President George W. 
Bush as he was setting up the Bush Institute. And I have had 
the honor of sitting with President Carter and talking about 
these kinds of things. It is not a question of what political 
point of view you have from this country. I think you are 
right. There is an interrelationship on many of these points.
    What really we are talking about is human dignity and 
people want human dignity. They want some control over what 
happens to their lives. They don't want to be exploited one way 
or the other, whether it is a one-party state or whether it is 
a military dictatorship.
    And in a sense, I agree with my colleagues that have been 
in the private sector, though I have been in this work for some 
years. You have to be strategic. You want your energies to 
create something that is valuable so that you feel that it has 
been a good use of your time and efforts.
    There are countries where there are minimal things that we 
can do. There are nonetheless people in those countries who 
want dignity and want some kind of a representative government 
rather than what they have got. And there are some ways of 
working with them, remotely in small ways and so on. In other 
places, you can see that there is an opportunity to help those 
people take that next step. And when they ask you to do that, 
it is an honor to be able to help them out in the process. I am 
trying to get at the essence of what I thought was your 
question. It is a marathon.
    Yesterday, we met at NDI, and I am sure my colleagues and 
some people on the Hill met with, Mr. Morgan Tsvangirai, a 
former Prime Minister of Zimbabwe who has been trying to get 
into government there. And part of what he said is this is a 
marathon: ``We may be coming to the last 5 miles. That is when 
you need support the most.'' And so there really is a 
challenge, country by country as to what you might be able to 
do that is helpful.
    Mr. Clawson. Even after hearing you speak, I think 
governance, freedom, and economic growth are all tied together. 
There are great models of economic growth that ignore human 
rights, human dignity, and have governance by a small amount of 
people. And as I watch Africa develop, I am always worried that 
that model could be adopted if the correct crony capitalistic 
model that puts all the wealth in very little hands and the 
governance as well causes folks or causes the military or some 
other entity. And so anything I can do to help, I mean I am 
just a Congressman, right? But anything I can do to help I am 
all for what you are doing. I think it is a big deal.
    I hope that, if anything, my few comments today help you 
think about how to be selective about which countries and where 
the ground is most fertile to spend these kind of dollars in 
your own effort.
    And the other thing I guess I would say is the people out 
there doing this on the ground, that is not easy work, right, 
under very difficult circumstances. And so, if you will pass 
along my compliments in that regard, these are folks that have 
foregone creature comforts and other things to do difficult 
things in difficult environments. It is always easy in DC for 
us to forget that, right? It is easy to criticize those that 
are working hard for the benefit of their fellow men and women. 
So if you will pass that along for me, I am done with my little 
comments today and appreciate everything you all are doing. And 
I will gavel it out, right? The subcommittee is adjourned, 
right? This is the first I have ever got to do this, you all.
    [Whereupon, at 12:06 p.m., the subcommittee adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
